<html>
<title> - EXAMINING AMERICA'S NUCLEAR WASTE MANAGEMENT, STORAGE, AND THE NEED FOR SOLUTIONS FIELD HEARING</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                          EXAMINING AMERICA'S
                       NUCLEAR WASTE MANAGEMENT
                  STORAGE, AND THE NEED FOR SOLUTIONS
                              FIELD HEARING

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                               AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 7, 2019

                               __________

                           Serial No. 116-34

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]     


                  Available on: http://www.govinfo.gov
                    http://www.oversight.house.gov or
                        http://www.docs.house.gov
                   
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-258 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bbcbd4fbd8cec8cfd3ded7cb95d8d4d695">[email&#160;protected]</a>                           
                   
                   
                   
                   COMMITTEE ON OVERSIGHT AND REFORM

                 ELIJAH E. CUMMINGS, Maryland, Chairman

Carolyn B. Maloney, New York         Jim Jordan, Ohio, Ranking Minority 
Eleanor Holmes Norton, District of       Member
    Columbia                         Justin Amash, Michigan
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Katie Hill, California               Michael Cloud, Texas
Debbie Wasserman Schultz, Florida    Bob Gibbs, Ohio
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Clay Higgins, Louisiana
Jackie Speier, California            Chip Roy, Texas
Robin L. Kelly, Illinois             Carol D. Miller, West Virginia
Mark DeSaulnier, California          Mark E. Green, Tennessee
Brenda L. Lawrence, Michigan         Kelly Armstrong, North Dakota
Stacey E. Plaskett, Virgin Islands   W. Gregory Steube, Florida
Ro Khanna, California
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
             Britteny Jenkins, Subcommittee Staff Director
                          Amy Stratton, Clerk

               Christopher Hixon, Minority Staff Director

                      Contact Number: 202-225-5051
                                 ------                                

                      Subcommittee on Environment

                   Harley Rouda, California, Chairman
Katie Hill, California               James Comer, Kentucky, Ranking 
Rashida Tlaib, Michigan                  Minority Member
Raja Krishnamoorthi, Illinois        Paul Gosar, Arizona
Jackie Speier, California            Bob Gibbs, Ohio
Jimmy Gomez, California              Clay Higgins, Louisiana
Alexandria Ocasio-Cortez, New York   Kelly Armstrong, North Dakota
                         
                         
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on June 7, 2019.....................................     1

                               Witnesses

The Honorable Darrell E. Issa,Former Chairman, Committee on 
  Oversight and Government Reform
Oral Statement...................................................     6
Mr. Don Hancock, Director and Administrator, Nuclear Waste Safety 
  Program, on behalf of Southwest Research and Information Center
Oral Statement...................................................     8
Mr. Daniel Stetson, Vice Chairman, SONGS Community Engagement 
  Panel
Oral Statement...................................................     9
Mr. Tom Isaacs, Former Lead Advisor, Blue Ribbon Commission on 
  America's Nuclear Future
Oral Statement...................................................    11
Mr. Scott Morris, Region IV Administrator, U.S. Nuclear 
  Regulatory Commission, Region IV
Oral Statement...................................................    13

*Written opening statements and statements for the witnesses are 
  available on the U.S. House of Representatives Document 
  Repository at: https://docs.house.gov.


                           INDEX OF DOCUMENTS

                              ----------                              

The documents entered into the record are listed below/available 
  at: https://docs.house.gov.

  * Letter from Orange County Board of Supervisors; submitted by 
  former Rep. Darrell E. Issa.
  * Communty Engagement Panel Letter to Southern California 
  Edison; submitted by Rep. Levin.
  * Holtec's Letter to the Community Engagement Panel in 
  response; submitted by Rep. Levin.


 
                          EXAMINING AMERICA'S
                   NUCLEAR WASTE MANAGEMENT, STORAGE,
                       AND THE NEED FOR SOLUTIONS
                             FIELD HEARING

                              ----------                              


                          Friday, June 7, 2019

                   House of Representatives
                        Subcommittee on Environment
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 11:28 a.m., in 
Chet Holifield Federal Building, 2400 Avila Road, Laguna, CA, 
Hon. Harley Rouda presiding.
    Present: Representatives Rouda and Comer.
    Also present: Representative Levin.
    Mr. Rouda. The subcommittee will come to order.
    I am actually going to take a page from Vince Lombardi, who 
always started his meetings a few minutes early. So since we 
are all here, if there is no objection, we will begin.
    Without objection, the Chair is authorized to declare a 
recess of the committee at any time.
    Without objection, the gentleman from California, Mr. 
Levin, is authorized to participate in today's hearing.
    This subcommittee is convening to examine the management of 
spent nuclear fuel, concerns related to the storage of nuclear 
waste, and the need for long-term solutions.
    I now recognize myself for five minutes to give an opening 
statement.
    I am proud that we have been able to bring a little bit of 
D.C. here to OC as we convene this hearing in Laguna Niguel to 
examine the management and storage of our Nation's nuclear 
waste and the need for Congress to take action to find long-
term solutions.
    Questions related to the long-term safety of America's 
storage of nuclear waste are not new. The first commercial 
nuclear power plant in the United States was opened by 
President Dwight Eisenhower in 1958. Twenty-five years later, 
President Ronald Reagan signed into law the Nuclear Waste 
Policy Act of 1982, which dictated that the Federal Government 
would identify a permanent geological repository and begin 
transferring waste from nuclear power plants by 1998.
    As we sit here today, it has been over two decades since 
that 1998 deadline and over 50 years since the opening of this 
Nation's first nuclear power plant, and the Federal Government 
has failed, and continues to fail, to find a solution to our 
country's nuclear waste problem.
    Without a permanent repository, there are now approximately 
100 sites across at least 34 states currently storing high-
level nuclear waste. Americans' exposure to the risks 
associated with having nuclear waste in our communities does 
not fall along any partisan or demographic lines. Approximately 
one in every three Americans now live within 50 miles of 
nuclear waste. Nuclear reactors and spent nuclear fuel sites 
sit in congressional districts represented by both Democrats 
and Republicans. The serious challenges at hand affect 
communities across our country.
    One of these sites, the San Onofre Nuclear Generating 
Station--SONGS--is less than 20 miles from where we sit right 
now.
    Let's put that into context. After the Fukushima nuclear 
disaster in 2011, the Nuclear Regulatory Commission--NRC--
recommended that Americans in Japan evacuate 50 miles away from 
that site.
    Currently, an estimated 8.4 million Americans live within a 
50-mile radius of the SONGS plant that is 20 miles from here. 
That includes residents of Los Angeles, San Diego, Orange, 
Riverside, and San Bernardino counties.
    As a resident of Laguna Beach, my family and I live just 30 
miles from the SONGS site. I hear the concerns of my 
constituents and those of Southern California. I, too, am 
concerned about the long-term risk associated with storing 3.6 
million pounds of nuclear waste at SONGS. This nuclear waste is 
just about 100 feet from the shoreline, sits adjacent to one of 
the Nation's busiest highways, and near to seismic fault lines.
    Since the promise fueled by the first wave of nuclear 
reactors in the 1950's, we have seen highly publicized 
meltdowns at Three Mile Island and Chernobyl and waste 
management challenges around the globe. It is clear that 
nuclear power and waste are not without significant risk.
    Commercial nuclear power production in the United States 
has created over 160 million pounds of spent nuclear fuel, and 
an additional 28 million pounds of nuclear waste has been 
created by nuclear weapons production and other defense-related 
activities. And it is estimated that we will be adding another 
120 million pounds in the next several decades. That will be a 
total of 280 million pounds of nuclear waste with no home and 
risking the homes and lives of over 100 million Americans.
    As Chairman of this subcommittee, the protection of public 
health and safety are among my top priorities. I am committed 
to focusing the Federal Government's attention on its 
obligation to protect the public from nuclear hazards and 
advocate for the environment, and to work to hold the 
appropriate agencies accountable.
    If we take steps now to fully recognize the magnitude of 
our country's nuclear waste problem, and if we reach across the 
aisle to develop bipartisan legislation, the United States can 
pursue workable solutions. But we do not have any more time to 
waste; the clock is ticking. In fact, because of the challenges 
and logistics involved with moving and housing nuclear waste 
with a long-term viable solution, the best-case scenarios, if 
we act now with purpose and expediency, is approximately 10 
years out.
    My hope is that we can all agree that our current and past 
failed efforts to both develop and implement a plan has not led 
to a viable or safe, long-term solution. Our government owes 
the American people an effective plan to address our nuclear 
waste storage problem, a plan that securely stores this waste 
without presenting health and safety concerns for local 
communities across the country.
    The radioactive material at the core of this challenge will 
outlast everyone in this room and all humans currently alive. 
It is estimated that all of our Nation's nuclear waste will 
remain radioactive for somewhere between 100,000 and 1 million 
years.
    I hope that my statements adequately portray the 
seriousness of this dilemma. My thoughts and feelings are 
informed by the fact that our action or inaction will have a 
direct impact on the lives of our children, grandchildren, and 
hundreds of future generations.
    I thank all of you for joining us today, and I appreciate 
all of our witnesses for both their ongoing work on this 
important issue and for taking the time to join us today. I 
know that many of you have traveled considerable distances to 
be here and have prepared thoughtful testimony to present.
    With that, the Chair now recognizes the Ranking Member, Mr. 
Comer of Kentucky, for five minutes for an opening statement.
    Mr. Comer. Well, thank you, Mr. Chairman, for convening 
this field hearing. I also want to thank the local community 
for hosting us today.
    This hearing is a continuation of the fact-finding we have 
done in Washington and will do elsewhere around the country to 
find policy solutions. When we think about the Federal 
Government's involvement in energy policy, it has an important 
role to play in ensuring the safety of our nuclear power plants 
and the safe storage of nuclear waste.
    There are approximately 90,000 metric tons of nuclear waste 
in the United States that requires safe disposal. And the level 
of nuclear waste in the United States is expected to increase 
to 140,000 metric tons over the next few decades.
    Yet there is still no permanent disposal site that has been 
fully approved by the Nuclear Regulatory Commission or the 
Department of Energy. Anyone serious about tackling these 
challenges knows that to address the United States' capacity to 
responsibly manage and store nuclear waste, we must commit to 
fund the completion of the Nuclear Regulatory Commission's 
review of the Yucca Mountain licensing application. While it 
may be politically expedient to say otherwise, the reality is 
that Congress must take action to ensure that proper funding is 
distributed to the Nuclear Regulatory Commission and the 
Department of Energy so that the Yucca Mountain licensing 
application may be fully reviewed and completed.
    Let me be clear: nuclear energy has an important role to 
play in our Nation's energy needs. It emits zero carbon 
emissions and is incredibly efficient. But we must solve the 
problem of where to put nuclear waste.
    The nuclear waste at San Onofre has sat here for too long, 
and this community deserves resolution.
    I want to thank the witnesses appearing here today, 
including the former Chairman of this committee, Darrell Issa, 
who represented this area for 18 years. Despite no longer being 
a Member of Congress, Mr. Issa clearly cares deeply about this 
issue, this community, and finding a resolution to the problem. 
I want to note that his testimony supports bipartisan solutions 
to this problem, and I am optimistic that one of those 
solutions can make its way to the President's desk this 
Congress.
    I look forward to the discussion today, and I yield back, 
Mr. Chairman.
    Mr. Rouda. Thank you, Ranking Member Comer.
    At this time I would like to yield five minutes to 
Congressman Levin. Before I turn the microphone over to him, I 
want to applaud Congressman Levin for his unbelievable 
commitment to addressing this issue. As you know, SONGS lies in 
the district he represents, and with his leadership I am 
confident we can hopefully get to a bipartisan solution.
    So, Mike, the floor is yours.
    [Applause.]
    Mr. Levin. Thank you.
    Mr. Issa. Don't they let you speak first?
    [Laughter.]
    Mr. Levin. Thank you, Chairman Rouda. Thank you to our 
Ranking Member as well. I appreciate the opportunity to 
participate in today's field hearing.
    The spent nuclear fuel in San Onofre in my district has 
been a central focus and will remain a central focus of my 
service. I regularly hear the same question all across our 
district, from Dana Point to Oceanside and San Clemente to Del 
Mar: When are you going to get the nuclear waste off our beach?
    And together we have made it a bipartisan priority in 
Washington to fight for solutions to the challenges at SONGS 
and at spent nuclear fuel sites all across the country.
    Unfortunately, these aren't challenges that are going to be 
solved in a few months or even a few years, but I strongly 
believe it is long past time they receive the attention they 
deserve, especially given the risk that nuclear waste poses to 
the communities in our district and elsewhere in Southern 
California.
    I look at the issues associated with the spent fuel at 
SONGS on two tracks. First, it is our job as Members of 
Congress to ensure that the Federal Government is providing 
robust oversight for the decommissioning activities at SONGS. 
And second, we must work with our colleagues in Washington to 
find solutions that result in the removal of spent nuclear fuel 
from San Onofre. This is particularly important given the 
environmental factors that make SONGS a higher-risk site than 
most nuclear sites across the country.
    I am pleased that today's hearing focuses on solutions and 
continues to shine a spotlight on all the work we have ahead of 
us. I am pleased to report that we have accomplished a lot in 
the last five months. First, I have convened a SONGS task force 
co-chaired by Rear Admiral Len Hering, a former Navy mayor of 
San Diego, and Greg Jaczko, a former chair of the Nuclear 
Regulatory Commission. Admiral Herring, Mr. Jaczko, and their 
partners on the task force are analyzing issues regarding the 
onsite management of spent nuclear fuel at SONGS and working to 
help identify a path forward that fully protects the community 
and environment around the plant.
    At the same time, I have been fighting to make Southern 
California Edison and its contractor at SONGS, Holtec, more 
transparent with our communities. They must make all decisions 
with a focus on safety rather than maximizing profits. I have 
been concerned about some recent events. At the end of March, 
the Nuclear Regulatory Commission assessed Edison with two 
high-level violations and a $116,000 fine for an incident last 
year during which a spent fuel canister nearly dropped 18 feet, 
and then was not properly reported. And in April, the NRC 
issued two more violations to Holtec because of design changes 
to canisters at SONGS. The changes resulted in loose pins at 
the bottom of the canisters that hold tons of nuclear waste.
    Given the multiple incidents and violations that have taken 
place at SONGS, I believe the NRC must exercise its full 
authority to enforce safe practices at the site, which 
unfortunately has a history of inadequate transparency. That is 
why I have called on the NRC to assign a full-time inspector to 
SONGS. Senators Feinstein and Harris, as well as 
Representatives Rouda, Peters, Vargas and Davis, joined me in 
making that demand.
    Nearly two months after we sent a formal letter to the NRC 
on the subject, we have yet to receive a response. I hope that 
is an issue we can explore further during the questioning 
portion of the hearing.
    On top of these SONGS oversight activities, I have been 
working with my colleagues in Congress to create a pathway to 
get the spent fuel off the beach at San Onofre. Next week, my 
legislation that makes SONGS one of the highest-priority sites 
in the Nation for spent fuel removal is receiving a hearing 
before the House Energy and Commerce Committee. The bill, 
called the Spent Fuel Prioritization Act, ensures fuel from 
decommissioned nuclear sites in areas with larger populations 
and higher seismic risk, such as ours, is removed first. This 
concept has broad bipartisan support.
    However, in order to prioritize removing the spent nuclear 
fuel off the beach at San Onofre, we must have somewhere to 
move it to. Due to a request I led with my colleagues, the 
spending bill the House is set to consider next week includes 
$25 million for a consent-based interim storage program at the 
Department of Energy. Similar requests have been made for the 
past five years, and I am proud that this is the first year 
that it was adopted into the House spending bill.
    Interim storage is not a comprehensive solution to the 
spent fuel challenge, and it certainly must proceed with a 
consent-based process. But it is currently the most viable 
pathway to move spent nuclear fuel away from the rising Pacific 
Ocean, off of active fault lines, and further from population 
centers in Orange and San Diego Counties.
    It is also a solution that both the House and Senate have 
expressed bipartisan support for, so it has a real chance to 
move forward.
    Spent fuel storage and disposal are complex and challenging 
issues. In fact, my own thinking has evolved as I met with our 
military and civilian leadership and received a number of 
briefings on the safest option for our communities. With that 
in mind, I look forward to hearing from today's witnesses and 
receiving additional input from a variety of technical experts.
    I also want to take a moment to acknowledge my predecessor 
who is here to testify. I appreciate his past efforts and his 
continued interest in this issue. I believe it is an area where 
we can work together on a bipartisan basis for the benefit of 
those in our district and for all of Southern California.
    And with that, Mr. Chairman, I yield back.
    Mr. Rouda. Thank you, Congressman Levin.
    For those in the audience, thank you for coming and thank 
you for your passion and commitment to helping us address a 
very important issue. But I would also respectfully ask that 
you not wave signs while you are here. That would be more 
consistent with the protocol of these committee meetings both 
in D.C. and in the field.
    Now I would want to welcome our witnesses.
    Scott Morris, Region IV Administrator with the U.S. Nuclear 
Regulatory Commission, Region IV.
    Tom Isaacs, former Lead Advisor, Blue Ribbon Commission on 
America's Nuclear Future.
    Daniel T. Stetson, Vice Chairman, SONGS Community 
Engagement Panel.
    Don Hancock, Nuclear Waste Program Director, Southwest 
Research and Information Center.
    Darrell Issa, former Member of Congress.
    Please stand and raise your right hands, and I will begin 
swearing you in.
    Do you swear or affirm that the testimony you are about to 
give is the whole truth and nothing but the truth, so help you 
God?
    Let the record show that the witnesses answered in the 
affirmative.
    Thank you; please be seated.
    I will note that the microphones tend to be a little bit 
sensitive, so please make sure that they are close to you and 
that you speak directly into them. Without objection, your 
written statements will be made part of the record.
    With that, Mr. Issa, you are now recognized to give a five-
minute oral presentation of your testimony.

 STATEMENT OF HON. DARRELL E. ISSA, FORMER CHAIRMAN, COMMITTEE 
               ON OVERSIGHT AND GOVERNMENT REFORM

    Mr. Issa. Thank you, Mr. Chairman, Ranking Member, and my 
successor, Mr. Levin.
    I would like to ask unanimous consent that a letter 
addressed to the Chairman in support of this hearing and the 
projects that are being considered in Congress from the Orange 
County Board of Supervisors be placed in the record.
    Mr. Rouda. So moved, without objection.
    Mr. Issa. Thank you.
    With my opening statement in the record, I will try to use 
the five minutes as well as any of us who have served.
    As Congressman Levin said, this is not a partisan issue, 
but it is a regional issue that is going to take members like 
the gentleman from Kentucky and the two gentlemen from 
California working together to push for a solution.
    The fact that Yucca is not currently the repository is a 
political decision made based on both Republicans and Democrats 
in a state that chose not to want the product. That will be 
true of some people in every state in which you will propose 
shipping it.
    When I came to Congress 19 years ago, one of the first 
things I became aware of is we didn't have a low-level 
repository because people decided that they couldn't find a 
place in California. So we were shipping basically nuclear 
waste, much of it from cancer treatments and the like, to--and 
I apologize, I think it was Kentucky, but it could have been 
Tennessee, to the repository back there which had been 
produced, essentially paying to offload our responsibility 
across the country in freight cars at some incremental risk, 
and certainly while shirking our responsibility.
    In the case of the National Repository, it's not California 
shirking its responsibility, as other witnesses will say. We 
did have sites considered. But California, in spite of its 
great size and some remote areas, does sit on an earthquake 
fault, does have some other challenges, and it was not by 
anyone's definition the best place.
    I think the one thing that everyone should come away from 
this hearing with is a recognition that no matter what Southern 
California Edison does, they will never have as safe a storage 
place as long as it lies between the ocean and I-5 as a myriad 
of other locations, in New Mexico, in Texas, in Nevada, and, to 
be honest, in an awful lot of other places we could find.
    Some decade ago, I went to Area 51, as it sometimes gets 
called, or the Nevada test site. This is not Yucca. And I 
witnessed firsthand as we flew over those mounds. People can 
see it on Google Earth. It's not a big secret. The mounds were 
produced by underground nuclear testing.
    The fact is we have vast areas that you and I will not be 
able to go to and walk around for the rest of our lives and 
lives well beyond our great-great-great-great-grandchildren.
    So when we look at where we are today and where we were 18-
plus years ago when I came to Congress and first began looking 
at SONGS, and 18 years before that when Congressman Ron Packard 
came, and he knew in 1982 that they needed to deal with nuclear 
power residue and he voted as a freshman to empower a solution, 
in those 36-plus years, what we've always known is that there 
are safer places than all 100 sites that currently house spent 
nuclear rods and like material.
    I would say today for the record that if we cannot agree on 
Yucca or another site, an interim site--and when I say 
``interim,'' interim is 10,000 years. If we tell ourselves that 
interim is a matter of months or years, we fail to meet the 
responsibility of what might happen. If we do not do that, then 
we will have 100 sites. And although we may be by many people's 
estimation one of the worst, if it is in your backyard anywhere 
in the country, including my home state and the Chairman's home 
state of Ohio, if you're up there on Lake Erie and the largest 
body of fresh water and you've got spent rods that if there 
were a disaster would take about one-fifth of the world's fresh 
water and contaminate it, then you have a similar view to what 
all of us do here in Southern California, and I think it's 
particularly positive that we have a Chairman who knows both 
the Great Lakes dilemma with its nuclear plants and 
California's.
    So I want to thank you for inviting me here. I want to make 
sure that we understand here today that what we have to do is 
get Congress to move. It is not a question of Republican or 
Democrat. It is a question of a will to move 21 years after the 
deadline set by my predecessor in 1982.
    And I yield back.
    Mr. Rouda. Thank you, Mr. Issa.
    At this time I yield five minutes to Mr. Hancock for an 
opening statement.

 STATEMENT OF DON HANCOCK, DIRECTOR AND ADMINISTRATOR, NUCLEAR 
   WASTE SAFETY PROGRAM, ON BEHALF OF SOUTHWEST RESEARCH AND 
                       INFORMATION CENTER

    Mr. Hancock. Thank you, Mr. Chairman and members of the 
subcommittee. I appreciate the opportunity to be here to 
present my organization's views on this important, complex, and 
difficult subject. We very much appreciate your leadership in 
looking for solutions that Congress can take.
    My name is Don Hancock. I'm with Southwest Research and 
Information Center, which is a private, non-profit organization 
incorporated in New Mexico. For the last 48 years we've worked 
on a wide variety of environmental justice and health issues, 
including nuclear waste.
    So, there's been some discussion already of the history. I 
want to spend briefly looking at five lessons that we take from 
some of that history.
    First, commercial spent fuel has always been generated 
without the essential scientifically sound, publicly accepted 
program for safe disposal of large amounts of very radioactive, 
very long-lived nuclear waste. Since 1971, even before--the 
first proposed repository was in 1971. So for all of these 
years we've had technically problematic sites being proposed 
which engender a lot of public opposition and don't get 
operated or built, so we don't have repositories.
    Second, there's no consensus about health and safety 
standards, including whether commercial spent fuel is safe 
where it is. If it is safe where it is, why move it? If it's 
not safe where it is, how can it be safe to transport through 
many other communities to someplace else?
    Third, in our Federal system, storage and disposal 
facilities require consent. No state has volunteered for a 
spent fuel repository or monitored retrievable storage sites, 
even though they have been proposed, as we just described, for 
decades.
    Further, many states have specifically not consented to 
hosting such facilities. Nevada has made very clear that its 
technical and legal opposition to Yucca Mountain will prevent 
that site from ever receiving spent fuel. Congress should 
formally repeal the selection of Yucca Mountain as a repository 
site.
    Fourth, without a repository program, spent fuel will 
continue to stay at or near reactor sites for decades, 
including at closed reactors, unless the nuclear industry is 
willing to volunteer its own reactor storage sites. Thus, 
improved storage measures are needed to better protect public 
health and the environment, which is what my organization and 
hundreds of other non-profit organizations have been advocating 
for many years. I've attached to my testimony ``Principles for 
Safeguarding Nuclear Waste at Reactors,'' which represents 
those principles.
    So, for example, at San Onofre, which appropriately all the 
people in this room are particularly concerned about, the fuel 
needs to be moved away from the ocean to higher ground for 
storage and robust atmospherically controlled building.
    Fifth, New Mexico has some history in all of this, too. The 
first important point to recognize is New Mexico is and has 
always been majority population people of color. The state has 
disproportionately borne the negative impacts of the nuclear 
fuel chain, including contamination and resulting health 
effects from the first nuclear bomb, which was not in 
Hiroshima, it was at the Trinity site in New Mexico. We have 
continuing victims from that all these years later, again 
mostly people of color who have not been recognized, 
compensated, or cared for.
    Uranium mining and processing started 70 years ago. A huge 
amount of the uranium that fueled the cold war came from New 
Mexico and the Navajo Nation. We have more than 1,000 abandoned 
sites that have not been cleaned up that continue to be health 
problems, again primarily for indigenous people in our state.
    Third, Los Alamos National Lab, which was created during 
World War II to build the first bomb and test the bomb, is 
there, and it continues to be a source, a long-term source of 
contamination.
    Fourth, New Mexico also has the Nation's only operating 
geologic repository, the Waste Isolation Pilot Plant, which is 
for defense transuranic or plutonium contaminated waste.
    New Mexico, however, has never had commercial spent fuel. 
No reactors, no commercial fuel. That doesn't mean it hasn't 
been discussed. When it's been proposed we have said no. We 
have been promised no. The WIPP Land Withdrawal Act Federal law 
says no. But yet there are still proposals, one in the `90's 
from the Mescalero Apaches, which we said no to, and a current 
one from Holtec International, which we are also saying no to.
    There are ways forward. But continuing targeting New Mexico 
is not scientifically sound, is not publicly accepted, and is 
an environmental injustice. Thank you.
    Mr. Rouda. Thank you.
    Mr. Stetson, I now yield five minutes to you for your 
opening statement.

  STATEMENT OF DANIEL STETSON, VICE CHAIRMAN, SONGS COMMUNITY 
                        ENGAGEMENT PANEL

    Mr. Stetson. Good morning, Mr. Chairman and members of the 
subcommittee. Can you hear me okay?
    Mr. Rouda. Yes, thank you.
    Mr. Stetson. Thank you for the opportunity to appear and 
testify at today's meeting. My name is Dan Stetson, and I serve 
as Vice Chairman of the Community Engagement Panel, or ``CEP'', 
for the San Onofre Nuclear Generating Station, or ``SONGS'' for 
short.
    I was invited here today to serve as a representative of 
the SONGS CEP. The CEP was formed in early 2014 after the 
retirement of SONGS in 2013. The purpose of the CEP is to serve 
as a bridge and conduit between SCE and the local community.
    The 18 members of the CEP represent a range of 
stakeholders, from environmental NGO's and Native American 
tribes to business and organized labor. More than half are 
local elected officials, from Oceanside to Dana Point, sworn to 
represent the best interests of their constituents. All of us 
are volunteers.
    The three officers--including Chairman Dr. David Victor of 
UCSD; myself, Vice Chairman; and Jerry Kern, immediate past 
city council member from Oceanside--provide input to SCE on 
agenda topics and public engagement. We hold quarterly meetings 
and periodic workshops. All are open to the public for 
transparency. Meetings are webcast live, and video recordings 
are posted online. We provide at least one full hour at every 
meeting for public input.
    Over the past five years, the CEP has addressed a wide 
range of issues that are important to the local communities. 
But I have learned that they really boil down to two. The first 
one is safely managing the spent fuel that's onsite, and No. 2 
is safely removing the spent fuel from the site.
    Let me first address onsite storage, and more specifically 
dry cask storage. This is what we on the CEP have come to call 
defense-in-depth for dry cask storage. Defense-in-depth means 
looking at the full complement of means to support safe onsite 
storage of spent fuel. This starts with the design and 
fabrication of the spent fuel canisters, while also considering 
operation, maintenance, and security, as well as canister 
inspections and, if needed, remediation of a compromised 
canister.
    Over the past five years we've had 21 meetings, many 
workshops, and dry cask storage has been the topic or has been 
included in every single one of those meetings. As a result of 
these meetings, SCE has taken concrete steps to address areas 
of concern of the general public. One such step is laser 
peening the welds of the new canisters to minimize the risk of 
chloride-induced stress corrosion cracking of the canister 
shells. They have also agreed to provide radiation monitoring 
as long as the fuel is onsite.
    The second important issue is safely moving the spent fuel 
offsite. Over the years, most but not all members of the local 
community have expressed an interest in moving the spent fuel 
offsite from San Onofre to a federally licensed storage or 
disposal facility. Off-site storage has also been addressed at 
every single CEP meeting.
    The ongoing costs are also a very important consideration 
as the schedule for the Department of Energy to remove spent 
fuel continues to slip. The 2018 audit report of the Office of 
the Inspector General estimates the slippage cost to the 
American taxpayer of over $35 billion. This translates to over 
$2.2 million per day that we don't move the fuel.
    To address offsite storage, in 2017 Chairman David Victor 
delivered testimony before the House Oversight and Government 
Reform Subcommittee on Interior, Energy, and Environment. 
David, Jerry, and I, and other CEP members, have met and 
continue to meet with members of the California congressional 
delegation to advance Federal legislation for spent fuel. 
Congressional outreach is part of a broader effort to try to 
effect changes to the Nuclear Waste Policy Act and enable solid 
interim storage and permanent disposal.
    I sincerely appreciate the requests by Representatives 
Rouda, Levin, and others for $25 million in the Energy and 
Water Appropriations bill to help fund CIS, transportation, and 
infrastructure.
    On behalf of the SONGS Community Engagement Panel, let me 
close by thanking you for making this a top priority of your 
administrations. We look forward to congressional action to 
safely remove the spent fuel from San Onofre.
    With the passage of the Nuclear Waste Policy Act of 1982, 
Congress made a solemn promise to the American people. To date, 
that promise remains unfulfilled. We are counting on you to 
keep this promise and solve this seemingly intractable problem 
once and for all. Thank you.
    Mr. Rouda. Thank you, Mr. Stetson.
    Now I recognize you, Mr. Isaacs, for five minutes for your 
opening statement.

   STATEMENT OF TOM ISAACS, FORMER LEAD ADVISOR, BLUE RIBBON 
             COMMISSION ON AMERICA'S NUCLEAR FUTURE

    Mr. Isaacs. Thank you very much. Thank you for the 
opportunity to testify, and I am pleased that you and other 
Members of Congress are focusing on this important issue.
    In 2010, the Administration halted the extensive yet 
controversial work on Yucca Mountain, calling the program 
``unworkable.'' The Secretary of Energy was directed by the 
President to establish a Blue Ribbon Commission, or BRC. The 
BRC was co-chaired by General Brent Scowcroft, a Republican and 
national security adviser to two U.S. presidents, and 
Congressman Lee Hamilton, a Democrat and 17-term member of the 
U.S. House of Representatives and Vice-Chair of the 9/11 
Commission.
    After two years of work by the 16 distinguished 
commissioners on the BRC, we produced a report entitled ``Blue 
Ribbon Commission Report on America's Nuclear Future.'' The 
report put forward eight fundamental recommendations. I will 
not describe all of them here as the report is readily 
available online, but four stand out.
    The first recommendation was that the program should move 
forward with consent-based siting; that is, new facilities 
dedicated to the storage and disposal of spent nuclear fuel 
should be sited in locations where there would be adequate 
consent by those who would be affected.
    The second recommendation was that the program be moved 
from the Department of Energy and established as a stand-alone 
organization focused solely on this challenge. This was not so 
much a criticism of DOE as a recognition that to establish the 
requisite program stability, trust, and confidence required a 
dedicated program over decades and a degree of buffering from 
short-term political considerations.
    The third and fourth recommendations called for prompt 
actions dedicated to siting and building both interim storage 
and final disposal facilities for spent nuclear fuel.
    I believe that the Nation owes all of us a pragmatic and 
timely solution to nuclear waste management. There are a number 
of compelling reasons that spent nuclear fuel should be moved 
from reactor sites everywhere, but particularly where reactors 
have been shut down. These arguments include economics, 
national security, and environmental considerations, and the 
BRC report describes them in detail.
    Disposal in a deep, stable, underground repository is the 
preferred solution for every country that is addressing this 
issue, and this has been the case for decades. There is an 
international consensus and confidence that such repositories 
can be licensed, constructed, operated, and then closed, 
permanently isolating the waste from the accessible 
environment.
    The U.S. Government has been liable for the delays which 
are costing taxpayers billions of dollars, and the liabilities 
continue to grow. Shut-down sites should have their spent fuel 
removed to allow for full decommissioning of the sites and 
their return to productive use. The central reason I believe 
that waste must be removed is simple: it is the right thing to 
do. When communities, regions, and states accepted the siting 
of nuclear power plants in their vicinity, they did not sign up 
to be the host of these waste facilities located on the surface 
forever. We should not leave a legacy to our children and our 
children's children to clean up after us because we did not 
have the political will to meet our responsibilities.
    So what are we going to do? The first problem, in my view, 
is the mistaken view that there is little or no crisis here, 
and since any solution is politically charged, the easiest path 
at any point in time is to do nothing. As I have stated, we owe 
it to ourselves, future generations, and the rest of the world 
who look to us for leadership to solve this highly solvable 
problem.
    Second, we need to understand and respect that there are 
differing views by responsible people who truly want to solve 
this issue. We are unlikely to get there as long as this is 
viewed as a win-lose situation.
    Third, we need to establish a national waste program that 
has the requisite talent, stability, flexibility, and access to 
the required funding to do the job and work every day to earn 
the trust and confidence of affected parties.
    Fourth, we need a vibrant program to demonstrate our 
commitment to success and to reassert our international 
leadership and lead by example to ensure that safety, nuclear 
security, non-proliferation, and counterterrorism remain 
effective across the globe.
    Let me conclude by quoting from the Blue Ribbon Commission 
report. ``The problem of nuclear waste may be unique in the 
sense that there is wide agreement about the outlines of the 
solution. Simply put, we know what we have to do, we know we 
have to do it, and we even know how to do it. Experience in the 
United States and abroad has shown that suitable sites for deep 
geologic repositories can be identified and developed. The 
knowledge and experience we need are in hand, and the necessary 
funds have been collected. Rather, the core difficulty remains 
what it has always been, finding a way to site these inherently 
controversial facilities and to conduct the waste management 
program in a manner that allows all stakeholders, but most 
especially host states, tribes, and communities, to conclude 
that their interests have been adequately protected and their 
well-being enhanced, not merely sacrificed or overridden by the 
interests of the country as a whole. An informed and empowered 
public, a national waste program dedicated to excellence and 
engagement, and a Congress and Administration that sees the 
solution as a fundamental responsibility are among the key next 
steps for our shared success.''
    Mr. Rouda. Thank you, Mr. Isaacs.
    Mr. Morris, the Chair now recognizes you for five minutes 
for an opening statement.

   STATEMENT OF SCOTT MORRIS, REGION IV ADMINISTRATOR, U.S. 
            NUCLEAR REGULATORY COMMISSION, REGION IV

    Mr. Morris. Thank you, Mr. Chairman. Good afternoon, 
Chairman Rouda, Ranking Member Comer, Congressman Levin. My 
name is Scott Morris, and I am the Administrator for the U.S. 
Nuclear Regulatory Commission's Region IV Office based in 
Arlington, Texas. I am a 26-year veteran of the agency and a 
retired U.S. Navy nuclear submarine officer.
    I appreciate the opportunity to testify before you today to 
discuss the NRC's role and responsibilities associated with the 
oversight of high-level radioactive waste. I will also provide 
the status on licensing a permanent deep geologic repository 
and an overview of the NRC's reviews associated with two 
proposed interim spent fuel storage facilities. Finally, I will 
describe the NRC's oversight of the handling and storage of 
high-level radioactive waste at the Nation's current and former 
commercial power reactor sites.
    The NRC was designated by statute as the independent 
regulator for overseeing the design, construction, operation, 
and eventual closure of a geologic repository for the permanent 
disposal of high-level radioactive waste at Yucca Mountain, 
Nevada. In 2008, the NRC received a license application from 
the U.S. Department of Energy, which is responsible for siting, 
constructing, and operating the repository. The NRC completed 
its safety evaluation report for the application in January 
2015 and supplement to DOE's final environmental impact 
statement in 2016.
    With two exceptions related to land and water use, the NRC 
staff concluded in its safety evaluation report that DOE's 
application met all applicable requirements for issuance of the 
construction authorization. However, the final decision on 
whether to authorize construction cannot be made until an 
adjudicatory hearing is completed and the Commission completes 
its review of contested and uncontested issues. The 
adjudicatory hearing associated with the application was 
suspended in 2011.
    Over the past three years, the NRC has received two 
applications for consolidated interim storage facilities, one 
from the Interim Storage Partners for a facility in Texas, and 
a second from Holtec International for a facility in New 
Mexico. The NRC staff had anticipated completing its review and 
issuing final licensing decisions for both applications in the 
summer of 2020. However, the schedule for both applications is 
expected to change based on the completeness and the timeliness 
of answers to staff questions on the applications and whether 
or not evidentiary hearings will be held.
    So until a permanent repository or a consolidated interim 
storage facility is licensed and operational, NRC licensees may 
store spent fuel in spent fuel pools or in dry storage casks. 
The NRC has determined that both methods of storage are 
adequate to protect public health and safety and the 
environment. Dry storage casks can be arranged in vertical, 
horizontal, or underground systems at the plant site, known as 
independent spent fuel storage installations, or simply ISFSIs. 
The NRC reviews all spent fuel storage cask system designs 
before they are certified for use to ensure that they can 
protect against natural phenomenon such as seismic events, 
tornadoes, flooding, and can also withstand the potential 
impacts from airborne debris or accidental drops of storage and 
handling equipment.
    NRC regulations do not specify a maximum time for storing 
spent fuel. The Commission has determined that spent fuel can 
be stored safely in a pool or dry storage cask for at least 120 
years. Dry storage casks are licensed or certified for up to 40 
years, with possible renewals of up to 40 years.
    In conclusion, NRC licensees are safely handling and 
storing spent fuel, and the agency will continue to provide 
oversight to ensure adequate protection of the public health 
and safety and the environment.
    Chairman Rouda, Ranking Member Comer, Congressman Levin, 
this concludes my prepared remarks. Thank you for the 
opportunity today, and I will be pleased to respond to your 
questions.
    Mr. Rouda. Thank you, Mr. Morris.
    Thanks to all of you for your opening comments.
    I am going to reserve my opening five minutes of questions 
and yield to the distinguished member from Kentucky, the 
Ranking Member, Mr. Comer, for five minutes of questions.
    Mr. Comer. Well, thank you, Mr. Chairman. Again, I thank 
the witnesses for their testimony.
    Before I ask a couple of questions, I just want to make 
certain here that the entire panel agrees that the current 
business model to store nuclear waste is unsustainable; 
correct? Everyone agrees with that.
    Mr. Isaacs, one of the things that wasn't really touched 
upon in the testimony was the potential threat of terrorist 
attacks, the homeland security risk. Do you believe that most 
commercial nuclear power plants where nuclear fuel is stored 
are safe from potential terrorist attacks?
    Mr. Isaacs. I believe that this has been looked at quite 
closely by the NRC, and they have found that when you look at 
credible potential incidents, that these facilities have been 
adequately designed and implemented to be protective. But I 
would ask my colleague to perhaps talk more about that.
    Mr. Comer. Mr. Morris?
    Mr. Morris. Yes, thank you. We do have a robust regulatory 
regime in place to ensure adequate protection of the spent fuel 
in either type of installation. In addition to ensuring their 
compliance through the licensing process, we also provide 
robust and routine oversight to ensure that those measures 
continue to remain in place and are reliable.
    Mr. Comer. What about the transportation process and the 
risks of terrorist threats? If you are transporting--if we can 
get to a consensus on, for example, Yucca Mountain, what is the 
potential threat there? I am sure that is something that has 
been studied thoroughly, as well.
    Mr. Morris. It has, and with respect to transporting high-
level radioactive waste, there really are at least two Federal 
entities that are actively involved. Of course, the NRC, 
because we are the ones that approve the designs for transfer 
casks, and I will just note for the record that the type of 
design and the testing that those transfer casks have to endure 
are pretty robust and involve extreme temperatures, impacts, 
full submersion, et cetera.
    So we regulate, the NRC regulates the transport mechanism 
itself and how the licensee loads the fuel into those. The 
Department of Transportation is responsible for the driver, 
whatever vehicle is used to transport the cask, and we work 
with the Department of Transportation to identify and approve 
prior to shipment secure transport paths.
    Mr. Comer. Before I yield back, I just want to say that I 
look forward to working with you, Mr. Chairman, to try to come 
up with a solution, a sustainable solution. In my district in 
Kentucky, we have a uranium enrichment site that is being 
deactivated. It is right on the Ohio River, I mean literally 
right on the Ohio River, and I think this is an issue that 
everyone has mentioned is bipartisan, and it is an issue that 
affects probably a majority of Members of Congress, and it is 
something that I appreciate the purpose of this hearing and 
look forward to finding a solution.
    With that, I yield back, Mr. Chairman.
    Mr. Rouda. Thank you.
    At this time, I recognize Congressman Levin for five 
minutes of questions.
    Mr. Levin. Thank you, Mr. Chairman.
    Mr. Morris, thank you for generally being available, for 
taking the time to brief me on a number of occasions. I look 
forward to our continued opportunities to work together.
    Mr. Morris. You are welcome.
    Mr. Levin. I want to begin. I want to get through quite a 
few questions with you. I wanted to start with some basic yes-
or-no questions.
    Is it true that the NRC found that the near-miss incident 
at SONGS was caused by deficiencies in Southern California 
Edison's training, equipment, procedures, and oversight?
    Mr. Morris. Yes.
    Mr. Levin. Did the NRC find that Southern California 
Edison's staff at SONGS were not properly trained, certified, 
and supervised?
    Mr. Morris. Yes.
    Mr. Levin. Is it true that Southern California Edison 
failed to formally report the near-miss incident within the 
timeframe required by the NRC?
    Mr. Morris. Yes.
    Mr. Levin. And is it true that a similar event had 
previously taken place at SONGS but Southern California Edison 
didn't take corrective action to ensure it wouldn't happen 
again?
    Mr. Morris. Yes.
    Mr. Levin. With these findings in mind--and this is not a 
yes-or-no question--can you please explain to us why the NRC 
fined Southern California Edison $116,000 earlier this year?
    Mr. Morris. Absolutely, and I will try to be brief. Once we 
became aware of the incident, we constituted a special 
inspection team, a team of experts that we sent from our 
Arlington Office who spent a week onsite. They worked closely 
to understand the circumstances around the incident, and in 
subsequent weeks and months continued to work with Edison to 
fully understand the root causes of their event, and I think it 
is fair to say that we provided a lot of input into that 
process to ensure that their causal analysis was comprehensive.
    We then looked at the corrective actions that they 
developed to address those issues, and we ultimately satisfied 
ourselves that the corrective actions that they initiated were 
appropriate and robust. Of course, we will continue to inspect 
and assure going forward that they are maintained. But the 
enforcement action, the two key elements of that were that 
Edison, the licensee, failed to operate the system in 
accordance with its license design approved by the NRC, and 
they failed to report it in a timely manner, and those two 
factors alone were the basis for our enforcement.
    Mr. Levin. Thank you, Mr. Morris. Along with the fine, 
Edison was assessed Level 2 and 3 violations, which the NRC 
refers to as escalated violations and significant enforcement 
actions. Is it common for NRC licensees to receive Level 2 
violations?
    Mr. Morris. It is quite uncommon. The incident at Edison 
was unprecedented in terms of the level of significance.
    Mr. Levin. So as I mentioned in my opening statement, my 
colleagues and I wrote to the NRC and Region IV urging you to 
assign a full-time inspector to SONGS. We haven't received a 
response from the chair, but Region IV has told our staff that 
instead of a full-time inspector, you will have ``unannounced 
inspections on a frequent basis.''
    Do you have the authority to assign a full-time inspector 
to SONGS?
    Mr. Morris. It is actually a matter of policy. We implement 
the policy, and----
    Mr. Levin. But you have the legal authority.
    Mr. Morris. Oh, yes. The Commission certainly does.
    Mr. Levin. So I again strongly urge you to do so. Your 
testimony today has illustrated the unique situation at SONGS 
and the urgency, and the site's disappointing track record with 
regard to transparency and reporting, which I think warrants 
this unusual measure.
    With the time that I have--and I have more questions for a 
second round. So, Mr. Chairman, we will hopefully get to that.
    Mr. Isaacs, I wanted to thank you for bringing your 
expertise and experience to today's hearing. Do you think that 
a commercial reactor site located near an active fault is less 
safe than one located in an area without any earthquake hazard?
    Mr. Isaacs. Sure.
    Mr. Levin. And do you think larger populations near 
commercial reactor sites increase the risk associated with the 
site?
    Mr. Isaacs. In general, yes.
    Mr. Levin. So the Blue Ribbon Commission report that you 
referred to discussed a new approach to prioritizing the 
transfer of spent fuel from reactor sites and said the 
prioritization policy, and I quote, ``should be driven first by 
safety and risk considerations.'' The Blue Ribbon Commission 
also found that there is significant cost savings associated 
with accepting spent fuel from decommissioned sites first. As I 
discussed earlier, I have introduced a bill that would 
prioritize the removal of spent fuel from decommissioned 
nuclear reactor sites in areas with larger populations and 
higher seismic risk. Do you agree that we should be considering 
environmental externalities when we prioritize spent fuel for 
removal?
    Mr. Isaacs. Yes. I think we should do a very careful and 
thorough systems study to look at all of the potential benefits 
and risks of various schemes for picking up spent fuel when it 
is possible to do so, and prioritize the pick-up of the spent 
fuel, the actual operation based on optimizing in terms of 
cost, environmental concerns, safety concerns.
    Mr. Levin. Thank you, Mr. Isaacs.
    I am out of time, for now. I hope we have another round, 
Mr. Chairman. Thank you.
    Mr. Rouda. Thank you, Congressman Levin. You raised an 
interesting point.
    This is going to be a little less formal than a typical 
committee meeting in the sense that I am going to enter into 
some questions shortly, and at the conclusion of my five 
minutes I am going to allow the three of us to really ask 
questions of all of you and hopefully have a more open 
narrative than the structure of a typical committee meeting. 
And I am also hopeful at the end that we might have--if there 
are any important final comments any of you would like to get 
out before we break up, that would be welcome. We will also 
have some questions that I have received from people around the 
country who want to ask questions, so there will be a few 
questions there as well.
    One housekeeping. I would like to recognize that Supervisor 
Bartlett and Mayor Jennings from Laguna Niguel, and current 
Council member and former Mayor Toni Iseman from Laguna Beach 
are here, and we appreciate having their support and presence 
here as well.
    So I am going to yield myself five minutes for questions.
    Mr. Isaacs, I am going to start with you because we sat 
next to each other at a meeting at SONGS I guess maybe six 
weeks ago or so, and if I recall correctly you shared with me 
at that meeting that part of the issue as to why we have not 
had a long-term solution was because initially when we started 
building nuclear power plants, the first one in 1958 and many 
more in the `60's, we never thought we were going to have any 
nuclear waste that needed to be stored. Did I recall that 
correctly?
    Mr. Isaacs. Almost. What I sort of said and I think is true 
is when I started my career in those days, a stock answer to 
the question of why don't we build a repository was largely if 
we built one, it would stand empty. And the reason for that was 
there was every expectation at that point in time that there 
would be a massive growth of nuclear power plants. In fact, the 
standard planning objectives in those times were 1,000 reactors 
by the year 2000. We fell short, of course, by 900 reactors.
    The expectation at that point in time was if we have that 
many reactors, at some point we are going to start running out 
of uranium. It is going to get scarce, and it is going to get 
very expensive. So what we should do is prepare to reprocess 
that spent fuel to extract out the unused uranium and probably 
the plutonium that is produced and recycle it back into 
reactors. And the truth is, if we went to these advanced 
reactors, which is where I started my career, designing them, 
you wouldn't have to mine another pound of uranium for 
centuries. The uranium that is already mined is there. So it 
was very appealing in that sense.
    So if you were going to reprocess the spent fuel, which we 
wound up not doing because the nuclear industry did not 
continue to grow the way we anticipated, then we found 
ourselves in a situation which I think was unfortunate, and we 
should have built one. Where we had an expectation that we were 
going to be reprocessing, we would then take the spent fuel, 
extract the waste, and then we would put the waste only into a 
repository, so that would be the time to build it.
    Mr. Rouda. So, in essence, the continued supply of uranium 
has not created the market demand for the reprocessing of spent 
nuclear fuel?
    Mr. Isaacs. I would say in most cases that is true. There 
are a couple of countries that have invested in reprocessing, 
France being the most notable case. They have reprocessed fuel. 
They have put the unused parts of that back into reactors. That 
doesn't avoid the need for a repository, whether you reprocess 
or not. That is the part I want to make clear. As I think I 
told Congressman Levin, there is no magic machine out there 
that is going to avoid the need for an ultimate permanent 
disposal.
    Mr. Rouda. And, Mr. Morris, that confirms the conversation 
we had earlier too, that even if we did reprocess/recycle, we 
would never get to a zero amount of spent nuclear fuel that 
would have to be deposited somewhere.
    Mr. Morris. That is correct.
    Mr. Rouda. Okay, thank you.
    Mr. Hancock, we talked a little bit earlier too about the 
standards for the long-term entombment of spent nuclear waste, 
and there is a debate about what those standards should be. But 
my guess is that the standards are within a window as to what 
the experts believe they should be, and I guess my question is 
couldn't we as a country right now be identifying multiple 
sites in the United States that are within the parameters of 
the potential standards being set forth by various experts and 
begin a market-based process to determine multiple sites, 
rather than putting all of our efforts into one egg in the 
basket, which was Yucca Mountain?
    Mr. Hancock. Well, as I have said, I think Yucca Mountain 
should be stopped, and I think that is, frankly, a crucial 
first step, because to have this program that you are talking 
about with standards and looking at multiple sites, that 
hopefully is also going to have a consent basis to it and have 
multiple sites. People need to be confident that Congress means 
what it says about consent. Nevada has said no, will continue 
to say no. You can't say you are doing a consent program and 
have the first repository in a non-consenting state.
    Mr. Rouda. So assume consent is there by the appropriate 
jurisdictions, and the geologic conditions are favorable to the 
agreed upon standards, and that the economics are also 
agreeable to the local municipality, as well as the state 
municipality. Does it make sense, with a market-based approach, 
to have multiple sites?
    Mr. Hancock. Yes, there would have to be multiple sites, 
technically as well as whatever market incentives that you put 
in, because people have to understand that this is a shared 
responsibility.
    Mr. Rouda. Okay. Simultaneously with identifying sites that 
work--and I am going to turn to you now, Mr. Stetson--is making 
sure that we have the appropriate transportation system in 
effect to be able to move the waste, and maybe there are others 
who want to weigh in on this as well. But that is certainly one 
of the issues that goes along with where we house it, how do we 
get it there.
    I do know the United States Department of Defense is 
transferring spent nuclear fuel on a daily basis around the 
country; am I correct? Maybe not a daily basis, but on a 
regular basis. So this isn't something that we have no 
experience doing. We have experience transporting spent nuclear 
fuel. But is it unique with the reactor spent fuel? Does it 
require additional logistics, additional safety concerns? 
Please elaborate on that, if you would.
    Mr. Stetson. Actually, I think Mr. Morris or Mr. Isaacs 
would be better prepared than I would to answer those 
questions.
    Mr. Rouda. Thank you.
    Mr. Morris. The transportation issue obviously is a key 
issue, and the casks, the transport casks that we have licensed 
and certified are extremely robust. I mentioned that they have 
to endure pretty violent tests--in succession, I might add--of 
a violent impact, excessive heat for extended periods of time, 
and then full submersion, in sequence. So these are extremely 
robust transfer casks.
    The issue of the safe transport of the cask itself--and, by 
the way, the fuel itself, as such, the fuel inside the transfer 
cask will remain safe under those circumstances. The transport 
vehicle itself is something that the Department of 
Transportation is actively pursuing. But the third leg of that 
stool is the transportation route that is used to ensure that 
it is not only a safe route but a secure one as well.
    Mr. Rouda. Then one other question before I open it up to 
my colleagues here to continue asking questions, and I am going 
to use SONGS as an example.
    So if SONGS, if somehow the existing dry storage was 
breached, breached by terrorist attack from the outside, 
terrorist attack from somebody on the inside, a potential 
earthquake that could cause a spill, a significant spill, what 
would be the protocol at that point as far as addressing the 
spill and addressing the 8.1 million people living within 50 
miles?
    Mr. Morris. I guess I will start. So we do have, in fact, a 
very comprehensive, as I mentioned earlier, security aspect to 
ensure that the onsite security force can repel a very 
substantial adversary force, and it includes--I can't get into 
details, but vehicle bombs and armed adversaries, insiders, the 
whole bit, for the fuel that is in the pool.
    For the fuel that is in the dry casks, the nature of the 
storage makes it such that it is very self-protecting and 
doesn't require as much security infrastructure to protect. 
That being said, if there were some sort of breach, we have 
also got very robust requirements associated with emergency 
planning and incident response.
    But, frankly, the radiological risks associated with a 
shutdown reactor, particularly when the fuel has had the 
opportunity to cool for many years, simply aren't as 
significant from a hazard standpoint, particularly an offsite 
hazard standpoint, than would be for an operating reactor. And 
as such, our requirements reflect that.
    Mr. Rouda. But just to push a little bit further, if there 
was a breach and there was a spill, what would the protocol be?
    Mr. Morris. Well, the NRC--initially the licensee would 
report the incident. They are obligated to report that incident 
within 15 minutes to the state and local authorities. They are 
obligated to report that to us in the Federal Government within 
an hour. And at that point the entirety of the national 
response framework would be engaged, which involves a large 
array of not only Federal entities but they would be in support 
of the state and local entities. The county emergency 
supervisor and the local emergency services directors have 
worked together to ensure that, particularly for an operating 
reactor, they understand the protocols. They have worked 
together, they have practiced together, they know each other 
well and can quickly and efficiently respond under those 
circumstances.
    So on a shutdown, decommissioned reactor, the plan changes 
slightly. The offsite emergency planning licensees can ask for 
an exemption for that, which we have typically granted, simply 
because the radiological hazard is not as significant as it 
once was in the operating reactor. And as such, offsite state 
and local response agencies defer to what is called an all-
hazards plan. So there is a standard plan for responding to 
emergencies, the all-hazards plan, and this would fall within 
that, and they would come to the aid of Edison to the extent it 
was needed.
    Mr. Rouda. Yes, Mr. Issa?
    Mr. Issa. Sometimes it pays to be a former government 
official. A little piece of history.
    During the operation of SONGS, and during that period of 
time--and I am going to be brief and less accurate than some of 
these folks could be--the operating plan both for a failure of 
the pooled storage and a possible catastrophic failure of one 
of the active reactors included a pretty massive withdrawal of 
more than a million people from the surrounding area. It 
included the backup facility of the Marines at Camp Pendleton 
to provide safety. It included the shutdown of Interstate 5 
and, quite frankly, impacted the operation of the new State 15, 
meaning there was effectively no north-south route for over 10 
million Californians to take, and, for that matter, all the 
international traffic.
    So the reason I bring it up is that as they finally get the 
last of the liquid storage into dry casks, that does change, 
and I think the experts would agree that it reduces. What 
doesn't reduce, though, is that if your catastrophic example of 
a terrorist attack were to cause a breach of these massive 
concrete casks such that you would have exposed high-level 
radioactive material, if, for example, those casks were 
sitting--and I am going to use the example that the two 
Californians brought up because I think it is a good one. If it 
was sitting right at the corner of Fort Irwin, 29 Palms and 
Andrews, if it were sitting out in the California desert 70 
miles from the nearest town, then the answer would be that you 
would have to bring people in in HAZMAT suits and do the 
repair.
    Clearly, as the former representative of this district, if 
it were to happen where they currently are, it would clearly 
shut down Interstate 5. It would impact the operation of the 
base, of ocean traffic, of air traffic for a protracted period 
of time, and I think that is the important question you deserve 
an answer for. As long as these are there, as remote as the 
possibility is, your example of a deliberate attack leading to 
a breach is dramatically different if it is here versus the 
desert, even of California.
    Mr. Rouda. Thank you for that clarification, because I had 
the opportunity to tour the Port of Long Beach last week. When 
you take the Port of Long Beach and the Port of L.A. into 
account together, 40 percent of the goods that come into our 
country via ship come in through those ports, which would be 
within that radius we talked about earlier.
    With that, I will open it up to the other members here to 
ask additional questions.
    Mr. Levin. Mr. Stetson, a few questions for you.
    On May 15, the Orange County Register published an article 
entitled ``Moving Nuclear Waste at San Onofre Sparks War of 
Words Between Contractor and Community Panel.'' You are the 
Vice Chair of that panel. Dr. Victor is not here, so I am going 
to direct these to you.
    The article describes a letter that you and Community 
Engagement Panel leadership sent to Southern California Edison 
that outlines concerns with Holtec's management of canister 
downloading at SONGS, as well as its corporate governance.
    Holtec responded to you by describing your letter as, 
quote, ``irresponsible claptrap.''
    Chair Rouda, I ask unanimous consent that the Community 
Engagement Panel letter to Southern California Edison and 
Holtec's letter to the Community Engagement Panel in response 
are included in the hearing record.
    Mr. Rouda. Without objection, so ordered.
    [The information referred to follows:]
    Mr. Levin. Mr. Stetson, can you please describe for us the 
concerns that you and Dr. Victor and others on the CEP have 
with Holtec, the company's governance, and its actions at 
SONGS?
    Mr. Stetson. Certainly. As you know, there were four 
instances during the transfer of spent fuel that came to our 
attention. No. 1 were the shims. No. 2 was the incident in 
August. There was also some concern about a seismic restraint, 
and also some scratches. We felt that Holtec, while addressing 
them afterwards, that those events should never have happened. 
So on the basis of those events, we wrote the letter to 
Southern California Edison pointing out that we thought that 
there should be some additional concern and oversight with 
reference to what Holtec was doing. Southern California 
responded.
    Also, of course, there was the NRC investigation over all 
of those things.
    So we felt that the intent of the letter met our concerns 
and the response from Southern California Edison was 
appropriate for what happened.
    Mr. Levin. And how about Holtec's letter to Dr. Victor? 
What was your response to that, or your reaction to that?
    Mr. Stetson. Well, I have to say that we were a little 
surprised by the letter itself. We can understand their 
concerns, but we felt that it was appropriate primarily to 
address it since Southern California Edison is the one that is 
the primary party involved, that really our efforts should be 
directed with Southern California Edison and we should not get 
back and forth in any sort of duel with Holtec.
    Mr. Levin. Well, I hope that members of the public that 
haven't had the opportunity to read the letter from Holtec to 
my friend David Victor, who is a volunteer Chair of the 
Community Engagement Panel and a professor at UC San Diego with 
whom I work on a number of issues, I hope you have a chance to 
read this letter because I find it concerning, particularly 
from a company that is not just responsible for the canisters 
at San Onofre but also for roughly half of our Nation's spent 
nuclear fuel across the country. In fact, they are one of the 
two applicants for a consolidated interim storage site in New 
Mexico. So I think this is something that everyone needs to 
realize.
    Mr. Morris, last week the NRC announced that it had given 
Edison permission to resume loading canisters at SONGS. We had 
a meeting subsequent to that, and the NRC has since told the 
public and Congress that it could take Edison multiple weeks 
before it is physically prepared to resume loading, and that 
Edison will tell you, the NRC, before it does so.
    My question for you is very simple, another yes-or-no. Will 
you commit to informing Orange County and San Diego area 
Members of Congress, like me and Chair Rouda and others in the 
San Diego delegation, and the Orange County delegation, 
immediately after Edison informs you of their intent to resume 
loading?
    Mr. Morris. Absolutely.
    Mr. Levin. Thank you.
    Mr. Isaacs, in your testimony you mentioned a number of 
countries--Finland, Sweden, France, Canada--all of whom have 
national nuclear waste programs that are making progress. When 
we met recently you also discussed a term that I hadn't heard 
but that I was definitely impressed by, ``adaptive phased 
management,'' which I understand is a long-term spent fuel 
management strategy in Canada, one that you pointed to as a 
gold standard.
    Could you describe adaptive phased management and how we 
should apply it to San Onofre?
    Mr. Isaacs. Sure. So, adaptive phased management--I might, 
if it is all right, take a step back and say that the Canadian 
program was run technically very, very well early on. When I 
was in the government, we used to collaborate with them. And 
then the program was stopped by an independent panel who said 
that from a scientific and technical point of view, the program 
was very well run. From what they called the social license 
point of view, it was not. And so the program was taken away.
    Canada passed a new law in 2002 and created a new 
organization called the Nuclear Waste Management Organization 
to take responsibility for that. They came up with a dual 
approach to how to approach this issue. Canada has a lot of 
spent nuclear fuel. They have a scientific and technical 
method, which is very similar to what we want to do, which is 
to ultimately dispose of it in a deep geological repository, 
and a management approach, so science and management.
    The management approach is called adaptive phased 
management. What that says is you keep your eye on the ultimate 
goal. The ultimate goal is safe, permanent isolation of this 
waste from the accessible environment. But we know that these 
programs take a very, very long time, generations, to 
implement, even if you are on schedule, generations.
    So every once in a while, as you reach a certain point, it 
makes sense to sort of pause and ask yourself I know what my 
goal is, but are there things that have happened in the 
intervening time that might make it prudent to revisit certain 
aspects of the program? Maybe science and technology has 
advanced. Maybe politics have changed. Maybe the value system 
in the country has changed, or in the region has changed, and 
ask yourself am I still making the prudent decisions going 
forward, or can I improve.
    One of the aspects of effective management is continuous 
improvement. You shouldn't rest on what you have. You should 
always ask yourself can I do better. That is, in essence, what 
adaptive phased management is, and I think as it might apply to 
Southern California Edison or any other utility in a similar 
circumstance, it would be a prudent thing to every once in a 
while take a pause at an appropriate time and ask yourself are 
there things that I might learn and do to improve the program.
    Mr. Levin. So I would offer in that spirit that this is 
exactly the time for Southern California Edison and the NRC to 
do that, to look at the practices that are occurring onsite, 
the selection of the Holtec canisters, the procedures that have 
led to the scratching and gouging of canisters, that may lead 
to unnecessary public risk, and to assess and to take the time 
to be prudent and cautious to assess whether these are the 
safest practices moving forward. I can tell you that I believe 
the San Diego and Orange County delegation in Congress insists 
that you do that.
    And I will yield back to the Chair.
    [Applause.]
    Mr. Rouda. I am going to start with Mr. Isaacs. But again, 
anybody can jump in if you have additional input. But I do want 
to dig in deeper on market-based solutions, and I also want to 
look at that from a midterm and a long-term solution. There was 
also another variable or another option in there, and I don't 
recall what it was called, but instead of having nuclear waste 
go into long-term underground repositories, I believe I read 
somewhere about the idea of a midterm situation where it can 
provide a solution for maybe a couple of hundred years, but 
then there is another continued effort to move it into another 
spot.
    I just want you to elaborate on all of this because we have 
to start identifying solutions and moving the existing 100 
sites to midterm/long-term solutions. So if you could help us 
and these folks here understand a little bit more.
    Mr. Isaacs. First of all, I think you have done a very nice 
job just now explaining the situation. It is my view, and it 
was the view of the Blue Ribbon Commission, that--there has 
been this view for quite some time, by the way--that we need 
both interim storage, centralized or regional interim storage, 
and we need an ultimate final repository for permanent 
disposal.
    This waste, as has been mentioned by you, is hazardous 
potentially for very long periods of time, geologic time 
periods. So the consensus is that while we can store the waste 
safely for decades, generations, it requires active 
administrative control to assure that, and if you stored it 
long enough, ultimately those containers would have to be 
unloaded, and the waste would have to be loaded into new 
containers, and that seems to be, to everyone who has looked at 
it in this country and abroad, not a very pragmatic solution.
    So the answer was we should come up with a solution that 
allows for but doesn't require active administrative control, 
and as early as 1957 our National Academy of Sciences wrote a 
report saying we think the best preferred solution is to find a 
deep, stable geologic formation, make sure that it is operating 
the way we think it is, put the waste in there, watch it for a 
period of time, a few decades, and if it is working well, put 
the plug on.
    And now you can watch it, monitor it if you want, but you 
don't have to worry about 1,000 years, 10,000, 100,000 years of 
safety. The geology and the engineering that you do in there 
should do the job.
    So that is the general approach. But building a repository 
takes a long, long time, as we have seen. Even if we got the 
program restarted, it is going to take decades. And it seems 
prudent to me and to others that we should find one or more 
places that are dedicated to managing spent fuel. These reactor 
sites, San Onofre and elsewhere, when they were developed, part 
of the bargain was not, oh, and by the way, you are going to 
have this waste forever, so you need to plan on managing it 
forever.
    So there ought to be places put together in appropriate 
locations for management, temporary storage, ``temporary'' 
meaning in nuclear waste terms--decades, generations--to 
transfer that waste in an orderly fashion from the reactors, 
particularly from shut-down reactors, so that you can offload 
the spent fuel, decommission those reactors that are shut down, 
and put that land again into useful use in the locations where 
they are located.
    Mr. Rouda. But from a regulatory framework--and, Mr. 
Hancock, perhaps you can take this; and, Mr. Morris, you as 
well--from a regulatory framework, is it easier to site spent 
nuclear fuel in a regional facility that is more short term 
than long term? Or are we jumping through the same hurdles and 
hoops and timeframes?
    Mr. Morris. Is it easier? I don't know----
    Mr. Rouda. That is a very relative term.
    Mr. Morris. Yes. I don't know that it is easier. I mean, 
when it comes to----
    Mr. Rouda. Let me ask you this: Is it a shorter timeframe?
    Mr. Morris. To do the interim storage?
    Mr. Rouda. Yes.
    Mr. Morris. Well, based on the current track we are on, I 
expect that we will be in a position to make a final licensing 
decision on the New Mexico and Texas applications in the next 
two years. I mean, the original plan, as I said, was 2020. That 
has been delayed a bit for the reasons I mentioned. Certainly, 
when the contentions get resolved, that may result in hearings, 
et cetera. But it is likelier on a faster path than where we 
are at currently with Yucca Mountain.
    Mr. Rouda. Okay.
    Mr. Hancock. So, two points. NRC has only talked about the 
sites underway. It already licensed a consolidated interim 
storage site for 40,000 metric tons of fuel at private fuel 
storage in Utah. That was done in 2006. So a site exists, but 
it hasn't been used, and it won't be used for a couple of 
reasons.
    One, there is strong opposition in Utah to it, another 
state, by the way, without reactors. Why are we only looking at 
states without reactors for either interim or long-term 
disposal? So that is one point.
    The other point that I think is important to remember is 
that more than 90 percent of that spent fuel that you talked 
about in your opening statement, Mr. Chairman, is east of the 
100th meridian, quite a ways away from where we are. So there 
has got to be responsibility, management and otherwise, taken 
by folks in that eastern part of the country for interim 
storage. That is where it is. They are going to have to take 
responsibility. Many of these plants are planning to be open 
for 40 more years, so they are going to be storing more waste 
at those sites for this period of time.
    As I mentioned, if you really want to think about 
incentives, the people who currently have the best incentives 
to keep spent fuel safe are the people who have the spent fuel 
because they don't want accidents for liability, and operating 
power plants can't operate if they are having accidents.
    So I would really encourage some discussion with the 
nuclear industry about what kind of incentives they need in 
order to talk about one or more, probably multiple, 
consolidated storage sites.
    Mr. Rouda. And, Mike, I will get back to you here in a 
moment.
    Another question that came up I think somewhat--Mr. Morris, 
you perhaps flagged this for me to ask--is what are other 
countries doing? What is our concern with other countries 
around the world? I recognize that France and many of our 
European allies probably have sophisticated ways to manage this 
process, including Canada. Are there any countries that we are 
concerned about? Because I think what you are alluding to, when 
you start looking at 100 years out, 200 years out, 300 years 
out, the financial viability of any country at that time, which 
we do not know what it will be, their ability to manage a 
nuclear waste issue that is going to be around for tens of 
thousands of years, what is already the potential concern we 
are seeing in other countries' ability or inability to 
adequately address spent nuclear fuel?
    Mr. Morris. Well, I don't know that I am prepared to answer 
the question about what the status of other countries is. 
Perhaps Mr. Isaacs or somebody else on the panel would be 
better suited.
    Mr. Isaacs. I would be happy to help respond to that.
    Mr. Rouda. Please. You may want to move the microphone a 
little bit closer.
    Mr. Isaacs. Sure. First, as you suggest, there are several 
countries that have made substantial progress in solving this 
problem. The leading countries in the world right now are 
probably Finland and Sweden, followed closely by France, and 
right now Canada is in a very interesting stage where they had 
a consent-based approach. They had a number of sites that 
expressed some interest, and they are in the process of 
narrowing down to the preferred site, which will probably occur 
in the next five years or so. That is an active program. It is 
not guaranteed success, but it seems to be going quite well.
    At the other extreme, there are a number of countries that 
are in very difficult circumstances. For example, South Korea, 
Taiwan and Japan, all three of which have had extensive nuclear 
power, relied on nuclear power greatly for large percentages of 
their electricity, but they are small countries with limited 
geographical or topographical opportunities to site these 
facilities because they are very mountainous, and where they 
are not mountainous they are very highly populated.
    I actually work on this issue through a grant that I 
participate in with senior managers in several of these 
countries, the Pacific Rim countries, to share best practices, 
lessons learned, and ways in which we can help each other 
better succeed with this.
    They are in tough circumstances. They are running out of 
room at the reactor sites. They have the same kinds of 
political issues, maybe even more difficult, siting temporary 
storage and a repository for both population reasons and 
geographic reasons, which has led several countries to look at 
prospects which I won't go into now, unless you goad me, for 
multinational facilities where countries would come together 
and cooperate on one or more facilities that they could share. 
The obvious question that immediately pops up is they are all 
for it, they just don't want it to be in their country.
    Mr. Rouda. Similar to Mr. Hancock, what you are talking 
about with some of the utilities working together in a 
concerted effort.
    Representative Issa?
    Mr. Issa. You know, one of the limitations of being a 
former member is unless you ask a question like that, I am in a 
non-lobby one-year freeze, so thank you for asking the 
question.
    As a Member of Congress, you have the most freedom to 
explore all the solutions to the problems that we are talking 
about today and to push for solutions, and particularly 
economic solutions. I will tick off a couple.
    First of all, the answer to your earlier question is Russia 
is a poster child for a country that ran out of money, let 
nuclear submarines sit with hot fuel on them, in some cases 
sink. If not for the U.S. initiative, Kazakhstan would still 
have all of its spent plutonium, or its unspent plutonium. We 
actually harvested it and returned it to Mother Russia.
    By the way, bear in mind that the Russians have never given 
up one ounce of plutonium. They were happy to have us spend the 
money to make Kazakhstan safer, but they took back that high-
level valuable cargo.
    So when we look at countries running out of money, that is 
a very valid concern, and I think that should be a global 
concern that Congress should lead on.
    The second thing is that there are a number of solutions 
that have been talked about here today that exist, but they do 
require congressional action. For example, in Congressman 
Levin's district, you have General Atomic. They have been a 
leader on a number of solutions, including the ability to 
actually turn plutonium into energy in the reprocessing area, 
additionally in some other creative areas. Those solutions 
would require Congress to empower DOE to go further than just 
the studies, and in some cases it might be what the late Mark 
McCormick, a business fellow--you probably have looked at his 
books over the years--said. The difference between a problem 
and a business decision is a problem can't be solved by money; 
a business decision is a decision to spend money.
    So another example is that today there are not enough 
vehicles, if we had repositories, to quickly, safely move spent 
rods. So one of the things Congress could do is it could 
sponsor the development of next-generation rail and production 
of them so that they would be available when we reach that 
surge opportunity, whether it is one or more sites.
    Today we are looking at, when SONGS becomes available, you 
are still going to be standing in line for years waiting for a 
train to come in to take, one at a time, these casks. That 
could be something that you could do today.
    So reprocessing, obviously the next-generation reactors 
that could actually do that.
    The last one is the one we have been talking around. If, in 
fact, the gentleman from New Mexico is correct and over their 
dead and bleeding body they will ever accept; if, in fact, that 
is true, then Congress could look and say each state or region 
must develop a regional solution. We did this in low-level 
radiation, radioactive material, and it worked somewhat well. I 
mentioned in my opening statement it didn't work as well for 
California, but we bought our way out of our limitations.
    When I mentioned the deserts of California, if we look at 
Humble Bay, Diablo Canyon, and SONGS, it would be unreasonable 
if we could not get to a site by 2030, when all of our rods 
will be ready for transportation, the last of them will be 
ready. If we would not at least, as Californians, recognize 
that these three facilities all would benefit by at least going 
to a regional facility that, quite frankly, Congress and this 
state would put a priority on, nobody can tell the state of 
California that if the solution doesn't come federally, that 
California is empowered to do something at least to help the 
citizens of these highly populated areas.
    All of those are areas that you could be working on. I 
recommend that you work on all of those as though you are never 
going to have these other two sites or Yucca, that you work on 
these other solutions, because if you fail to do so, then 10 
years from now a very senior Congressman Levin will be where I 
was at the end of my 18 years, no real progress, simply older 
concrete casks sitting on the edge of the Pacific Ocean.
    Mr. Rouda. Thank you.
    Congressman Levin?
    Mr. Levin. In 10 years I will be a little grayer, a little 
older. Hopefully we will make some progress, but I appreciate 
that.
    A few more questions, Mr. Morris. What is the annual budget 
of the Nuclear Regulatory Commission?
    Mr. Morris. It has been declining. I believe the Fiscal 
Year 2019 budget is approximately $900 million.
    Mr. Levin. So about $900 million. What do you think the 
cost of a full-time inspector would be per year?
    Mr. Morris. Our budget model assumes roughly $420,000 per 
annum.
    Mr. Levin. Per year. So what is the cost of inspecting the 
canisters, as you did? You inspected, along with Edison's help, 
eight of the 29 canisters, is my understanding. What was the 
cost of doing that?
    Mr. Morris. I don't know exactly, but, I mean, it----
    Mr. Levin. Estimate.
    Mr. Morris. Twenty thousand.
    Mr. Levin. Twenty thousand dollars.
    Mr. Morris. Just to do--you said the eight canisters.
    Mr. Levin. The eight canisters.
    Mr. Morris. If you factor in travel and salary and 
benefits. I mean, that is probably high.
    Mr. Levin. What would the incremental cost have been of 
inspecting all 29 of those canisters?
    Mr. Morris. I think--I would have to defer to Edison. I 
don't know what amount of resources they spent to actually do 
the inspections they did.
    Mr. Levin. Is it a significant incremental cost? Is it a 
small incremental cost?
    Mr. Morris. Again, I would be guessing. I have heard 
numbers in the couple of hundred thousand dollars per canister, 
but I don't know that that is----
    Mr. Levin. Just to inspect them?
    Mr. Morris. Just to pull the lid off the vault, they 
employed a contractor to use robotic vehicles, and they covered 
the vast majority of the surface area of----
    Mr. Levin. But I thought a second ago you said to inspect 
the eight was only $20,000?
    Mr. Morris. I was referring to the cost of our inspection.
    Mr. Levin. To the NRC.
    Mr. Morris. Yes.
    Mr. Levin. Okay. So the cost to Edison is higher.
    Mr. Morris. Oh, absolutely. We don't purchase the equipment 
and----
    Mr. Levin. There would be no incremental cost to the NRC. 
What do you estimate the incremental cost would be to Edison? 
Maybe a few million dollars?
    Mr. Morris. To do the remaining 21 canisters?
    Mr. Levin. Twenty-two, yes. Or 21.
    Mr. Morris. Again, it would be absolute guesswork on my 
part. But if it was a couple, $300,000 per canister times 20, 
so a couple of million.
    Mr. Levin. Okay. Do you think that is worth the money?
    Mr. Morris. I believe that the analysis that the Edison 
folks did--and, by the way, we witnessed the collection of the 
data on those eight canisters, seven of the eight canisters. We 
witnessed that data. They performed a detailed analysis on 
their own that incorporated not only the real data they 
collected but made a number of assumptions about worst-case 
effects of manufacturing defects, and even what additional 
scratching might be incurred upon withdrawal of the canister, 
not simply the insertion, and they concluded that they would be 
within oil and pressure standards. We did an independent review 
of that and similarly concluded that their analysis was robust 
and sufficient.
    We also did our own evaluation of the data, and again that 
provided the confidence that we had that worst-case scratching, 
even for the remaining 40-some-odd canisters, would be within 
the limits of the code standard. So I----
    Mr. Levin. Just for the public's awareness, there were 29 
canisters, of which two canisters had issues, number 22 and 
number 29. Number 29 was the one that was almost dropped 18 
feet, yet Edison and the NRC decided to inspect only eight of 
those canisters on the premise that it was 95 percent certain 
that an inspection of eight of the 29 would be sufficient.
    I would say with something this significant, where again 
you have over 8 million people within a 50-mile radius, where 
you have active earthquake faults and the rest, and 
particularly when you have behavior from an actor like Holtec 
and the regard that they have treated the Community Engagement 
Panel, I would encourage that you spend the extra money and you 
inspect the rest of the canisters.
    A couple more questions on the canisters.
    Mr. Morris. Sure.
    Mr. Levin. To your knowledge, the best of your knowledge, 
do they have real-time monitoring for radioactivity?
    Mr. Morris. My understand is it is not real time. They are 
required by NRC regulations to do routine radiation surface----
    Mr. Levin. But they do not have any real-time monitoring?
    Mr. Morris. Currently, no. But they have made a commitment 
to the local community, is my understanding. Maybe Dan could 
comment on that. They made a commitment with respect--they 
described it at the panel meeting the other night.
    Mr. Stetson. That is correct. Edison has promised to have 
full-time radiation monitoring as long as the spent fuel is 
onsite.
    Mr. Levin. Hopefully we can followup with Edison. They are 
not here to pick on this morning, but I would like to followup 
to understand the specific date by which they will have real-
time radiation monitoring in place.
    Also, to the best of your knowledge, do they have real-time 
humidity monitoring, given that this is a coastal area with 
very high salinity? There is a lot of scientific dispute over 
whether or not the humidity in the area could impact the 
canisters negatively.
    Mr. Morris. I actually don't know the answer to that. I 
mean, I could go----
    Mr. Levin. So they don't, they don't.
    Mr. Morris. Okay.
    Mr. Levin. But I would recommend that that be part of the 
adaptive phased management, thinking through whether these 
canisters make the most sense and what type of monitoring is 
needed to ensure that they do.
    With that, I have a few closing remarks, but I appreciate 
your willingness to engage, and I mean that sincerely, and more 
to come.
    Mr. Rouda. As I mentioned earlier, we are going to do this 
a little bit informal. So I would like to take a moment for 
each of you--and, Representative Issa, I will have you start 
off--if there is anything we did not ask or that you wish we 
had asked or something that you feel has to be said, I really 
appreciate your comments from just a few minutes ago. I thought 
they were very helpful. But if there is anything else you would 
like to add, now is your chance.
    Mr. Issa. Well, I think that the most important thing that 
Members of Congress have to do is to recognize--and I am going 
to use a few terms, but I will just use one that everyone 
knows. There will always be NIMBYs. There will always be people 
who want things out of their backyard, Okay? And I am sitting 
next to a gentleman who is self-described as I don't want it in 
my backyard, and the audience today is filled with people who, 
for good reason, believe that it is time for it to begin moving 
out of their backyard.
    Those people need to be listened to and appropriately their 
concerns, those who need it out of their backyard, those who do 
not inherently want it in their backyard.
    What I would ask you to do is push aside what I have 
observed over my decades of service, and I am sure everyone on 
the panel has, and that is the people who subliminally, between 
those two, will tell you they don't want it in anyone's 
backyard. Those who simply would like to have the problem 
continue because it is part of the anti-nuclear, if you will, 
agenda must be pushed aside in favor of people who want a 
solution to the problem. You can be anti-nuclear and still 
recognize that there has to be a place for these, that there 
have to be solutions.
    So what I found over the years is I had people who told me 
that even though it wasn't their backyard that it was in, even 
though it wasn't their backyard it was going to, that any 
transportation would be impossible, that any movement would be 
impossible, and that any place it was or would go to would be 
dangerous.
    Now, I have no problem with that all being right, but 
solutions require that you do better than leave it where it is 
if there are better places to move it to, and that sort of a 
responsibility falls to you to divine, if you will, the 
concerns that are legitimate of the ``froms'' and the ``tos'' 
and push aside those who want to tell you that all solutions 
won't work, therefore the status quo is where you are going to 
be, and it becomes a political issue that, quite frankly, it is 
time that we end it. It is time that we do what responsible 
countries are doing, which is find real solutions to reduce the 
threat to our communities of not just these but of all nuclear 
waste.
    Let's bear in mind that none of us want to fail to have 
cancer cured with what is, in fact, deadly poison if it is left 
sitting around the hospital. So it is not just what we are 
talking about today. It is all the things we know we are going 
to still have in the way of radioactive isotopes.
    Thank you.
    Mr. Rouda. Thank you.
    Mr. Hancock?
    Mr. Hancock. Thank you very much for engaging and taking on 
this difficult task. I very much appreciate that, and it is a 
long process, and there are lots of people who must be 
involved, and I include stakeholders in various states.
    Also, one of the difficulties as you think about how 
consent would work--and I think that is its own interesting 
subject that is going to have to be looked on--is what are the 
roles of transportation and adjacent folks in dealing with 
that.
    Even though you have done a good job getting started, and 
it is going to be a long process, I want to also, in your role 
in the oversight committees, suggest another thing that you 
might want to look at that is related. You have some serious 
problems unrelated to spent fuel, including in California at 
the Santa Susana site, and there are significant issues with 
waste handling not related to commercial sites but related to 
Department of Energy sites that is also, I think, due some 
additional oversight. You are doing so well that I want to give 
you a little more to do.
    [Laughter.]
    Mr. Hancock. Thank you.
    Mr. Rouda. Mr. Stetson?
    Mr. Stetson. Well, once again I want to thank you for the 
opportunity to come and speak with you today, and I really want 
to end with something that I learned from my colleague here, 
Mr. Isaacs, that what we are really looking forward to on 
behalf of the community is trust. We really want to trust you. 
We really want to trust everyone involved in the process.
    But, No. 1, that means that those who are involved have to 
be competent in what they are doing. No. 2, they have to be 
making decisions with the public's interest at heart, making 
decisions that are best for the general public. And No. 3, that 
it is an open process that encourages dialog from all parties.
    And I want to thank you, Tom, for teaching me that.
    Mr. Isaacs. Not only did I teach you that, you just stole 
my concluding remarks.
    [Laughter.]
    Mr. Isaacs. So I will change subjects.
    I just want to make one perspective comment based on this, 
and this has to do with this issue of trust and confidence.
    There is a balance, a very hard and delicate balance to be 
drawn between making sure you rigorously look at all dangers, 
risks, and threats, and making sure that all of the systems 
that are a potential effect of that are handled properly so 
that the public and the environment are protected.
    It is too easy in an atmosphere where there is a lack of 
trust and confidence to lapse over into sensationalism and to 
start making decisions that are probably not in the best 
interests of all the parties, because people don't trust the 
people because they lack the kinds of things that Dan just 
mentioned.
    You know, we talk about the dangers if something goes wrong 
here. If we over-sell the dangers and then we say, by the way, 
we want to send it to you instead, we don't want it anymore, it 
is too dangerous, you take it, what do you think their reaction 
is going to be?
    So, No. 1, you have to be very prudent and sensible about 
how you balance the need between making sure that you are 
protected, that the community is protected, that the 
environment is protected, and sending a message that goes to 
the place where it is no longer based on science and prudent 
decision-making but is based on atmospherics.
    You know, it is interesting to me, you mentioned the 50-
mile evacuation zone for Fukushima. First of all, Fukushima, a 
complete disaster, no question about it, but it was an 
operating reactor. It was not a spent fuel pool passively 
storing the waste. Fifteen thousand people died from the 
tsunami itself, 15,000 people died. Very, very little direct 
health consequences came as a result of that catastrophe. But 
it had immense public consequences, immense social 
consequences, immense economic consequences.
    The evacuation itself disrupted the lives of untold 
thousands of people, completely destroyed their lives, but had 
nothing to do with the radiation. The fact that there were 
conflicting rules coming out or guidance coming out about how 
far to evacuate made things much more difficult and counter-
productive than they might have been otherwise.
    So I simply want to leave with the message that, 
absolutely, we need to make sure that the public is protected 
at all points in time, the workers at the site are protected, 
the environment is protected, and that we make decisions based 
on the best scientific and engineering judgment and based on an 
engaged public who gets to ask and have answered all of their 
concerns. Thank you.
    Mr. Morris. And I would just like to end with that I 
believe and I think most of the 3,000 colleagues I have within 
the NRC are absolutely committed to public health and safety. 
Our regulatory requirements are based on extensive research. We 
have very robust regulations in place that all applicants and 
licensees have to meet. They are subject to a detailed and 
rigorous licensing process. All of the decisions that we make 
are a matter of public record. And then once the license is 
issued, we begin a very important and robust oversight program 
that includes enforcement opportunities when there is bad 
behavior involved.
    I believe that any policy that is raised with respect to 
the ultimate or interim disposition of high-level radioactive 
waste will not succeed unless there is a strong, credible 
regulatory body in place to ensure that the safety and security 
of the American people is protected.
    So again, I will emphasize what we consider our critical 
principles as a Federal regulator over this material. We strive 
every day to maximize our independence, the clarity around the 
work we do, our openness and transparency, our reliability, the 
consistency with which we make our decisions, and efficiency as 
well, that we are using the dollars that we receive in the most 
efficient and effective way possible. Thank you.
    Mr. Rouda. Thank you, Mr. Morris.
    At this time, I would like to yield to Congressman Mr. 
Levin to make his final comments.
    Mr. Levin. Thank you, Mr. Chairman.
    As I mentioned earlier, the issues surrounding spent 
nuclear fuel and our nuclear industry are complex and 
challenging. I have had the opportunity now to meet a number of 
times with the military leadership at Camp Pendleton, as well 
as the Nuclear Regulatory Commission San Onofre and 
stakeholders from around the country, and I have learned more 
that informs my thinking about the best path forward for our 
district and our region.
    Yucca Mountain, as we have said, has been stuck now for 
more than a decade, and I think it is really important that we 
focus on a consent-based interim storage program. That is why 
we fought so hard for the $25 million in the House 
appropriations package, and I was excited we got that done.
    It is really important that consent and safety are the two 
keys to ensuring interim storage is acceptable and worthwhile, 
and I think Harley and I are in Congress to deliver solutions. 
That is what this is about, and this really should be a 
bipartisan issue focused on solutions.
    I think it is worth mentioning the timetable here so that 
the public understands. By Edison's own timetable, we wouldn't 
even begin moving the canisters offsite until 2035, and that 
wouldn't commence until 2050. I don't know about you, but I 
would actually like to be alive by the time all this is done.
    With funds for siting, permitting, and licensing an interim 
site, as well as prioritizing those sites across the country 
that have the highest population density and the greatest 
seismic risk, we could trim 10 to 15 years off of that 
timetable. I think it is a very worthwhile endeavor, and I hope 
you will continue to be engaged and continue to support those 
efforts.
    I just want to close by thanking again the Chairman for his 
organizing this hearing, as well as all of you in the public, 
including those on the task force, the elected officials who 
are here. I share your concern, and we are going to focus on 
this. It will continue to be a core element of my service for 
as long as I am honored to have the opportunity to serve as 
your representative. Thank you.
    [Applause.]
    Mr. Rouda. Thank you, Congressman Levin. And thank you, 
witnesses, for participating today. Thank you, public members, 
for coming to this hearing, this incredibly important hearing.
    Obviously, as you have heard today, we have a long way to 
go, and we do not have a clear path. And that is going to be 
the challenge for Congressman Levin, myself, this committee, 
this subcommittee, Congress as a whole, and many of these 
communities across the country who are so directly affected by 
having spent nuclear waste too close to their homes and their 
families.
    But as Congressman Levin said, we are committed to fighting 
hard to find the solution in a timely manner, as quickly as 
possible, and bringing to closure what should have been done 
decades before. With your help, we will hopefully get there in 
a timeframe as quickly as possible.
    I would like to thank our witnesses for testifying today. 
Without objection, all members will have five legislative days 
within which to submit additional written questions for the 
witnesses, to the Chair, which will be forwarded to the 
witnesses for their response. I ask that our witnesses please 
respond as quickly as you are able.
    Without anything further, this hearing is hereby adjourned. 
Thank you.
    [Whereupon, at 1:18 p.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
